                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS


                            CLOSEOUT MEMORANDUM

I((
  Case Number: A07070042                                                       Page I of 1



      A reviewe'r recently told a program manager (PM) he was concerned about material
      in a proposal he was asked to review.' The. reviewer had previously given a talk a t
      the PI's university and thought some of his material was in the PI's proposal. As
      required by NSF policy, the PLiI notified us of the allegation.
      The reviewer provided a copy of the slides he presented a t the PI's university, five
      papers, and three patents to indicate his intellectual property and body of work in
      this area. However, he failed to identify what material in the PI's proposal he
      thought was his intellectual propel-ty. When asked to do so, the reviewer declined
      to provide further details.
      We reviewed t,he available material and determined there was a 2-month period
      between the reviewer's visit and the PI's proposal submission. This time frame
      appears t.oo short for the PI to have assimilated the reviewer's idea, set up and
      carried out t,he experiments necessary to provide substantiation of the idea (the
      proposal included preliminary theoretical and experimeiltal data from the PI), and
      follow up with a proposal submission to NSF. Therefore, we conclude the subject
      was likely working on this idea prior to the reviewer's visit.
      The reviewer did not appear to use the same material a s the PI's group does. The
      PI's and co-PIS' biosketches indicate a history of working with that material in this
      general and related areas. Given these facts, we concluded there was insufficient
